NO. 19-1173

In the
Supreme Court of the United States
COMCAST CORPORATION, ET AL.,
Petitioners,
V.

INTERNATIONAL TRADE COMMISSION, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar,
opposing counsel have consented to electronic service, and that, on this 11th day of
June, 2020, copies of the Reply Brief for the Petitioners were sent to:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

Jeffrey Alan Lamken
MoloLamken LLP
The Watergate, Suite 500
600 New Hampshire Ave., NW
Washington, DC 20037

SupremeCtBriefs@USDOJ.gov

jlamken@mololamken.com
Respectfully submitted,

Arn Jacobsen

